No. 20]n tbe
~upreme

QCourt of tbe Wniteb

~tates

MARK ELLIOTT, LAWRENCE B. DVORES,
PETER C . REIN,

Petitioners,
v.
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO,
AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains 8,206
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on April 1, 2021

llcHfA/J
Peter C. Rein

